IN THE SUPREME COURT OF THE UNITED STATES
BRAD KETIH SIGMON,
Petitioner,
v.
BRYAN P. STIRLING,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
PURSUANT to Rule 39 of the Rules of the Supreme Court of the United States,
Petitioner, Brad Keith Sigmon, asks leave to file the accompanying Petition for Writ of
Certiorari to the United States Court of Appeals for the Fourth Circuit without payment
of costs and to proceed in forma pauperis and in support of the request states:
1.

The Petition for Certiorari in the form prescribed by Rule 14 of the Rules of this

Court, with Appendix attached, is submitted for filing along with this Motion.
2.

Petitioner was determined to be indigent by the United States Court of Appeals for

the Fourth Circuit and counsel was appointed on October 29, 2018 pursuant to the
Criminal Justice Act.
Respectfully submitted,

_____________________
Joshua Snow Kendrick
KENDRICK & LEONARD, P.C.
P.O. Box 6938
Greenville, South Carolina 29606
(864) 760-4000
Josh@KendrickLeonard.com
Greenville, South Carolina
October 26, 2020

